SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

. September 30, 2020
In re:

People State of Illinois, respondent, v. Vashaun Williams,
petitioner. Leave to appeal, Appellate Court, First District.
125953

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.

Very truly yours,

Clerk of the Supreme Court

2020 IL App (1st) 162512
No. 1-16-2512
Opinion filed February 20, 2020
FOURTH DIVISION
IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

THE PEOPLE OF THE STATE OF ILLINOIS, )
Plaintiff-Appellee,
v.
VASHAUN WILLIAMS,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)

Appeal from the Circuit Court
of Cook County.

No. 07 CR 19918
The Honorable
Thomas V. Gainer, Jr.,
Judge, presiding.

PRESIDING JUSTICE GORDON delivered the judgment and opinion of the court.
Justices Reyes and Burke concurred in the judgment and opinion.

OPINION

11

After a jury trial, defendant Vashaun Williams was convicted of two counts of first
degree murder for the stabbing deaths of his 60-year-old uncle, Charles Williams Jr. (Junior),
and his 83-year old grandfather, Charles Williams Sr. (Senior), on September 2, 2007. For the
two murders, defendant received a mandatory sentence of natural life in prison. At trial,
defendant, who was 26 years old at the time of the offense, did not contest that he stabbed his
uncle and grandfather; rather, he argued that he acted in self-defense.

No. 1-16 2512

12

On appeal, defendant argues (1) that the trial court erred by not allowing his sister,
Nicole Robertson, to testify about an alleged criminal sexual act and battery by Senior against
her 20 years earlier and to the impact that this 1987 incident had on his family, which would
have corroborated defendant’s testimony and the defense theory of the case; (2) that defendant
was denied effective assistance of counsel when counsel failed to object to the State’s requested
use of a void prior conviction for aggravated unlawful use of a weapon (AUUW) to impeach
defendant’s credibility; (3) that the trial court erred when it instructed the jury concerning
second degree murder based on only self-defense but refused to instruct the jury on second
degree murder based on provocation and mutual combat; and (4) that the cumulative effect of
these errors deprived defendant of a fair trial.

13

For the following reasons, we affirm.

14
15

BACKGROUND
It is undisputed that on September 2, 2007, defendant, Senior, and Junior lived together
in the same house, that the three of them were at home without anyone else present when a
physical altercation began, that Senior and Junior died of multiple stab wounds, and that
defendant stabbed them. The only surviving eyewitness was defendant, who testified at trial
that he acted in self-defense after Junior came at him with a knife and Senior joined the
altercation.

16

Prior to trial, defendant moved to introduce, in the defense’s case-in-chief, evidence of
two incidents of violence by each of the two victims. One incident was a 2004 domestic battery
charge against Junior, involving an attack by Junior against his then-girlfriend Verma Wyatt,
which defendant sought to introduce through Wyatt’s testimony.

2

No. 1-16 2512

V

The other incident was the alleged criminal sexual abuse and domestic battery in 1987
by Senior of defendant’s sister, Nicole Robertson. Although the arrest did not result in a
conviction, defendant sought to introduce Robertson’s testimony, as well as the testimony of
other family members.

18

Defendant sought to introduce the 1987 incident under two different theories. First, he
argued that it was evidence of Senior’s violent nature. Second, he argued that the 1987 incident
led to the breakup of his parents’ marriage and to his mother and sisters moving out of the
home that defendant continued to share with his father, and that this incident was “a seething
sore in this family.” Defendant claimed that Junior was offended by defendant’s talking about
the incident, that this was the motive for Junior’s attack on defendant, and that the 1987
incident was, thus, directly connected to the physical altercation ending in Senior’s and
Junior’s deaths.

19

During the hearing on defendant’s pretrial motion, defense counsel stated that
defendant would testify at trial about the 1987 sexual assault, about the effect that it had on
defendant’s family, and about the ensuing 20 years of turmoil that led to the deaths at issue.
Counsel argued that Robertson and the other family members listed by defendant would
corroborate defendant’s assertion that the 1987 incident, whether it was true or not, created
extreme hostility and tension in their family.

110

The trial court found that the 2004 incident by Junior was admissible but “that the
incident involving Ms. Robertson is too remote in time to offer the testimony of Ms. Robertson
to suggest that Senior had a propensity of violence.” After stating categorically that the 1987
incident was “too remote in time to be relevant and probative on any of the issues in this case,”
the trial court then immediately modified its finding and ruled instead that defendant could

3

No. 1-16 2512
testify about the incident, “[b]ut [it was] not going to allow Robertson to come in and testify
to that” incident. The trial court further observed: “I’m certain it will be something that comes
up again. But for now that’s the way I see this headed, okay.”
If 11

The defense did not ask, and the trial court did not rule on, whether other family
members could testify concerning the hostility and tension that this incident caused.
Defendant’s other proposed witnesses had included his father, mother, and another sister.

1|12

Also, prior to trial, defendant filed a motion in limine to bar the State from using
evidence of his prior convictions to impeach his credibility. Defendant had six prior felony
convictions. He had been convicted of (1) AUUW, on December 8, 2004, receiving a sentence
of 3 years; (2) possession of a controlled substance, on May 13, 2004, receiving a sentence of
18 months; (3) manufacture or delivery of cocaine near a school, on October 18, 2001
receiving a sentence of 4 years; (4) possession of a controlled substance, on January 24, 2001,
receiving a sentence of 2 years; (5) possession of a controlled substance, on February 23,2000,
receiving a sentence of 8 months of probation; and (6) aggravated battery of a peace officer,
on February 17, 1999, receiving a sentence of two years.

113

On March 28, 2016, the prosecutor stated that he was seeking to use only one of the six
prior convictions, which was the most recent one or the AUUW conviction. The prosecutor
stated that defendant had been released from confinement on the AUUW offense on August 7,
2006, which was less than 10 years ago.1 When the trial court asked if there were “any other
convictions within 10 years,” the prosecutor responded no. The trial court then asked defense

'Rule 609 of the Illinois Rules of Evidence permits evidence of a prior conviction to be used
to attack the credibility of a witness, but “[ejvidence of a conviction under this rule is not admissible
if a period of more than 10 years has elapsed since the date of conviction or of the release of the
witness from confinement, whichever is the later date.” Ill. R. Evid. 609(a), (b) (eff. Jan. 1, 2011).

4

No. 1-16 2512
counsel “[w]hat’s your position?” and defense counsel responded that he had no objection. The
trial court ruled: “Okay. You can use it then.”
If 14

At trial, the State called the following family members in its case-in-chief: (1) Alicia
Brown, daughter of Stephanie Thomas and granddaughter of Senior; (2) Phyllis Price, Brown’s
then partner; (3) Cheryl Ann Williams, sister of both Junior and Stephanie Thomas; (4) Barry
Thomas Jr., stepson of Stephanie Thomas; (5) Stephanie Thomas, Junior’s sister; and (6) Barry
Thomas Sr., Stephanie’s husband. The State also called police officers and a medical examiner.

1115

The family members testified that, on September 2, 2007, the day of the murder, the
family had gathered earlier in the day at Senior’s home for a party to celebrate the fact that he
had a scan showing that he was cancer-free. It was also the Sunday of the Labor Day weekend.

1116

Alicia Brown, age 48, testified that Senior had been diagnosed with colon cancer and
had begun treatment but his latest scan, as of September 2007, did not show any evidence of
cancer. The family decided to hold a celebratory party at Senior’s new home on South Perry
Street in Chicago. Previously, Senior had lived on Arthington Street, which Brown regarded
as “the family home” which she “knew as a child.” Brown purchased the family home so that
Senior would have the money to move and buy a new home that was closer to the rest of the
family. When Senior moved to the new home, defendant and Junior moved with him. Junior,
who had recently been awarded his veteran’s benefits and medals from serving in Vietnam,
helped take care of Senior by doing the grocery shopping, making meals, and aiding in other
day-to-day activities. Brown’s Uncle Prentice, who was defendant’s father, also helped out.

H17

Brown testified that, on September 2, 2007, she and her then-partner Phyllis Price
arrived at 10:30 a.m. to help set-up for the party. Brown testified that the party was “a great
day” and she and Price did not leave until the early evening. At 9:30 p.m., when Brown and
5

No. 1-16 2512
Price were at home, Brown received a call from her mother, Stephanie Thomas. In response,
Brown and Price immediately drove to Senior’s house and called 911. When they arrived, her
mother and stepfather Barry Thomas Sr were already present, as well as the police.

1118

Brown testified that, shortly before she had left the party, her grandfather said he was
going to lie down for a bit in his bedroom. Senior was not eating full meals because he had a
colostomy bag, and he had spent most of the day outside in the sun, so he was tired. Before
leaving, Brown looked in his bedroom, observed him sleeping, and did not wake him. Before
she left, Junior indicated that he was going to lie down on the living room couch in front of the
fan and cool off. During the party, Brown observed defendant talking to Price at one point in
the kitchen, but Brown did not observe him outside on the back porch or in the backyard or
“engaging” with everyone. For most of the barbecue, Brown and other family members were
outside, although people had been eating sometimes in the dining room.

1119

Brown was shown five knives and identified two of them: one was “used to cut ribs
and chicken,” while the other was “used to like hack at[,] to make rib tips.” Brown testified
that Junior had told her that he was taking seizure medication. On cross-examination, she
testified that, as a registered nurse, she knew that some seizure medications can have an adverse
effect if mixed with alcohol.

1J20

Phyllis Price, Brown’s former partner, testified largely consistently with Brown’s
testimony. Brown did not observe defendant on the back porch during the party, but she
encountered him when she entered the house to use the bathroom. Price recalled that defendant
had a child, and she asked him if his child was coming to the party. Defendant responded in an
angry manner: “don’t ask me about no baby.” Defendant acted “very differently]” from when

6

No. 1-16 2512
she had last spoken with him in July. Previously, she had felt that he had “kind of openjed]
up” when talking with her. Price did not observe him mingling with the family during the party.
On cross-examination, Price testified that she did not encounter defendant in the

121

kitchen but rather outside of his room where he was “sullen.”
Cheryl Ann Williams testified that Senior was her father and her siblings included

122

Stephanie Thomas; Prentice Williams, who was defendant’s father; and Junior, one of the
victims. Since she shares the same last name as defendant and both victims, we refer to her as
Cheryl. Prior to September 2007, Cheryl had observed that Senior’s hands had become gnarled
and he had difficulty picking up things. As a result, he did not use utensils when eating but
instead used his hands. Senior also had a colostomy bag as a result of his surgery for colon
cancer.
123

Cheryl testified that she did not arrive at the party on September 2, 2007, until the early
evening. Everyone gathered on the back porch, and the food was on the dining room table.
Cheryl did not observe defendant on the back porch and testified that he was in his room. When
she first arrived, she had brought with her a big pot of vegetables that she took into the kitchen
to set on the stove, and she observed defendant in the kitchen pouring himself a cup of coffee.
When Cheryl asked defendant how he was doing, “he just walked right past [her] like [she]
was invisible” and walked back to his room. Other than that incident, she did not observe any
anger or animosity among the other people at the party. Later that evening, she left the party
and went home. At 9 p.m., she was at home talking to her sister Stephanie Thomas on the
phone, when she heard someone on Stephanie’s end say “ ‘Auntie, I need your help.’ ” At first,
she did not recognize the voice as defendant’s voice, but when he kept talking, she recognized

7

No. 1-16 2512
his voice. Defendant stated: “ ‘They came at me, and I had to defend myself.’ ” Stephanie then
asked him “ ‘who came at you,’ ” and he replied
1 24

t

Granddad and Uncle Charles.

5

Cheryl testified that, although she was screaming for Stephanie not to hang up the
phone, Stephanie said that she would call Cheryl back. Cheryl called her son Andrew, got
dressed, and returned to Senior’s house. When she arrived, she observed police vehicles, an
ambulance, Senior’s dog, and family members outside.

125

On cross-examination, Cheryl testified that, when she first arrived at the party, she
observed Junior drinking a beer but she did not know how many beers Junior had consumed.
When Cheryl left the party at 7:40 p.m., Junior did not appear intoxicated. Senior had enough
control over his hands to pour a glass of wine for her mother from a wine bottle, although he
spilled a little. Senior could not hold a utensil because it was too thin, but he could hold a wine
bottle. Senior was drinking wine at the party, and he was able to handle a wine glass. At the
party, Senior was walking bent over, but he was not using a cane.

126

Officer Israel Gomez of the Chicago Police Department testified that, on September 2,
2007, at 9:20 p.m., he was working with his partner, Officer John Gregoire, when he stopped
defendant and Barry Thomas Jr., whom he already knew. The officers were in plain clothes
and driving an unmarked Crown Victoria on Princeton Street. Gomez asked defendant for his
name, which defendant provided, and Gomez then performed a protective pat-down search.
Observing blood on defendant’s clothing, Gomez asked defendant if he needed medical
attention. After defendant responded that he did not need medical attention, Gomez asked
defendant how he had cut himself. Defendant answered that he had cut himself with glass
earlier. Gomez then informed them that they were free to go.

8

No. 1-16 2512
Barry Thomas Jr. (Thomas Jr.), age 38, testified that he had lived on South Princeton

1f 27

Street since he was 2 years old, with his parents Stephanie and Barry Thomas Sr. (Thomas Sr.).
Thomas Jr. did not attend the party on September 2, 2007, because it was hot. In the evening,
he went to a nearby park, played basketball, and was heading home when a police officer called
to him from an unmarked vehicle. The officer, who knew him, asked him who a certain person
was, and that was when he observed defendant standing by a tree, a couple of houses away
from Thomas Jr.’s home. Defendant said:

a 6

Barry, do you remember me.

5

55

It had been at

least 10 years since Thomas Jr. had last observed defendant. The officer told defendant to place
his hands on the vehicle so he could be searched, which occurred. The officer asked defendant
why there was blood on him, and defendant responded that he had cut himself on some glass.
Thomas Jr. did not know the exact time, but he reasoned that it “was just about to get dark”
and “it gets dark around 9 p.m.” When the police left, defendant asked if “his auntie” was home
and if he could talk to her. Thomas Jr. understood defendant to be referring to Stephanie
Thomas. Thomas Jr. headed home, let defendant inside, and told Stephanie Thomas that
defendant was there. When Thomas Jr. called out her name, “she must have come to the door”
of her bedroom, “because she said [defendant] scared her.”
On cross-examination, Thomas Jr. acknowledged that he testified before the grand jury

H 28

that Stephanie Thomas said that defendant had scared her and that he then heard defendant say
u t

U 29

Somebody is trying to test me.

5 55

Stephanie Thomas2 testified that her daughter, Alicia Brown, had purchased Senior’s
old home so that he could move closer to Stephanie. Defendant had spent a lot of time at her

2Stephanie Thomas was married to Barry Thomas Sr., and when they married, she had three
children, including Alicia Brown, and he had four children, including Barry Thomas Jr. Since there are
three witnesses with a last name of Thomas, we refer to her as Stephanie. Her siblings included Cheryl;
Prentice Williams, who was defendant’s father; and Junior, one of the victims.
9

No. 1-16 2512
parents’ old home on Arthington Street when he was growing up. Her parents “doted” on him
and would do anything for him, and he often slept in their bed when he was little. She never
witnessed any arguments between defendant and Senior or Junior. In September 2007, Senior
was moving slower and was weaker. He had arthritis in his hands, which would shake and
appeared gnarly.
1130

Stephanie arrived for the party at 2 p.m. on September 2, 2007. Stephanie did not
observe defendant on the back porch, but she did encounter him in the kitchen pouring a cup
of coffee. Although Stephanie spoke to him, he did not say anything. “He was stirring and
stirring and stirring his coffee like he was in deep concentration.” There was no animosity or
anger among anyone at the party.
Stephanie testified that she and her family left the party sometime between 6:30 and 8

If 31

p.m. Once home, Stephanie called her sister Cheryl. They talked about how “strange”
defendant was acting, that he was “not participating,” and that they thought that was “odd.”
While Stephanie was talking to Cheryl, she heard Thomas Jr. say that defendant was there.
Defendant then entered her room and perched on the bed, and she asked him “ ‘what is going
on?’ ” While they were seated several feet apart, Stephanie did not observe any injuries on his
face or body, and he did not appear to be in physical distress.
Stephanie testified that defendant stated: “ ‘Auntie, I need your help.’ ” Then he stated:

U 32
«c t

They came at me.’ ” When she asked who had come at him, he replied: “ ‘Granddad and

Charles, Charles came at me with a knife.’ ” When she asked about Senior, defendant replied:
<( (

Him, too.’ ” When defendant was speaking, he was “cold,” exhibiting no signs of emotion.

Stephanie called out for her husband, who entered the room and asked “ ‘How bad is it[?]
To which, defendant replied:

(t (

5 >>

It’s bad.’ ” While Stephanie and her husband were dressing,

10

No. 1-16 2512
defendant left. As Stephanie and her husband were heading to Senior’s house, Stephanie called
911, and the State then played the 911 call for the jury. When they arrived at Senior’s home,
Stephanie’s husband entered first and then told her she could not enter. As they were heading
outside, the police arrived and told them to leave the house.
On cross-examination, Stephanie testified that, while Junior had “maybe” suffered

1133

from mood swings in the past, she had not observed him suffering from mood swings or
alcoholism in September 2007. At the party, she observed him with one beer, and he did not
appear intoxicated when she left. Defendant stayed with Stephanie’s parents when he was little
because his parents’ marriage had fallen apart. Stephanie was not aware that there was an
incident in 1987 that led to the breakup of defendant’s parents’ marriage. Stephanie was not
aware that Senior had been arrested in 1987 for aggravated criminal sexual abuse of his
granddaughter, Nicole Robertson. Stephanie did not know what happened to defendant’s
sisters after his parents’ marriage ended. After the breakup, Stephanie “saw the girls maybe
once.”
134

Barry Thomas Sr. testified that he was married to Stephanie, and his testimony largely
corroborated her testimony about the party and the events of the day. After the party and after
defendant had left their home on September 2, 2007, Thomas Sr. drove their vehicle back to
Senior’s house while Stephanie called 911. They were the first people on the scene. Thomas
Sr. walked to the front door, while his wife was still on the phone. After entering the front
door, he walked up three or four steps and observed Junior lying dead in a pool of blood in the
living room. Then he walked to Senior’s bedroom, where he observed Senior lying on the floor
in a pool of blood. Stephanie had started to enter the front door, so Thomas Sr. returned to the
front door in order to stop her from entering. After speaking with the police who had arrived,

11

No. 1-16 2512
Stephanie and Thomas Sr. went home, where Thomas Sr. woke up his son and told him what
happened, and they all went to the police station.

If 35

Officer John Nicezyporuk of the Chicago Police Department testified that, on
September 3, 2007, at 3:25 a.m., he was on patrol with his partner Officer Chris McGuire in a
marked police vehicle, when they received a battery report over the police radio from a hospital
in Oak Park. The officer explained that a battery report occurs when the hospital staff observe
an injury that is consistent with a battery. The report named defendant, and the operator
recognized the name from a prior “all call,” which occurs when someone is wanted for an
offense. At the hospital, Officer Nicezyporuk asked one of the triage nurses if there was
someone with defendant’s name waiting to be treated, so she called defendant’s name, and he
stood up. Defendant was using his left hand to hold his right hand up, close to his chest, and
his right hand had a bandage on it. After defendant stood up, they placed him under arrest,
which involved handcuffing him. Other than the fact that he was favoring his right hand, the
officer did not notice any other signs of distress or injuries. Officer Nicezyporuk was with
defendant while defendant was examined and treated, and defendant did not receive any
stitches. At 5 a.m., defendant was discharged from the hospital, with several Band-aids or
sterile strips on the palm of his hand and no other bandages. On cross-examination, Officer
Nicezyporuk testified that defendant had lacerations on both hands. Defendant was cooperative
and did not resist arrest.

1136

Brian Forberg of the Chicago Police Department testified that he was presently a
sergeant but that in 2007 he was a detective and that, on September 2, 2007, at 10 p.m., he was
assigned, with his partner Detective Eberle, to investigate the double homicide at Senior’s
house. They found Junior lying in the living room, covered in blood, near an overturned coffee

12

No. 1-16 2512
table that also had blood on it. Junior was not wearing a shirt or shoes, and there was blood
caked around his hands, his arms, and his upper body. His glasses were on the floor. There was
blood alongside a nearby easy chair, as well as on the chair itself and on a nearby couch. In the
comer was a box fan.3 There was broken glass that had been part of the coffee table. Junior
was “cradled around the wastebasket,” and there was “blood cast on the walls and curtains.”
Blood was flowing down his back and all over the carpet. Junior had no objects in his hands.
Forberg “determined [it] was evidence of a pretty intense struggle.”

1137

Forberg testified that there was blood on the doorknob and smeared on the door to
Senior’s bedroom, where Senior’s body was found lying on his back, on the floor. His head
was partially under an end table. He was wearing socks, blue jeans, and a white T-shirt, which
was soaked in blood. His right hand was clasped over his left hand, and his hands were folded
over his chest. There was a cane hanging from the handle of the closet door. There was blood
up and down his jeans and along his forearms and on the carpet. Senior had a large, gaping
throat wound, with a large deposit of blood to the right of his head, which flowed underneath
a cabinet. He had no objects in his hands. There was blood on his hands, and his hands had
cuts, which the detectives believed to be defensive wounds.

1138

Forberg testified that he did not find any knives in either Senior’s bedroom where
Senior’s body was located or in the living room where Junior’s body was found. Forberg did
find bloody footprints on the carpet leading from Senior’s bedroom to defendant’s bedroom.
The door to defendant’s bedroom had blood smears on it. Inside defendant’s bedroom, they

3Forberg’s testimony about a box fan corroborates, in part, Brown’s testimony that, before
she left the party, Junior indicated that he was going to lie down on the living room couch in front of
the fan and cool off. Supra 1J 18.
13

No. 1-16 2512
found a pair of jeans with “blood all over” them, as well as blood on the floor. There was a
phone in defendant’s room, but the police did not receive any 911 calls from defendant.
139

Forberg testified that, in the bathroom, they found blood around the sink, bloody tissue
in the toilet, and, to the right of the toilet, a knotted plastic bag with blood on the outside and
a knife blade sticking out of it. The bag contained five knives. Two of the knives had plastic
handles and were bent. The remaining three knives were longer steak knives with wooden
handles and blades with blood deposits. One of the three wooden-handled knives was also bent.

140

Forberg testified that, at 4 a.m. on September 3, 2007, he learned that defendant had
been detained at a hospital and Forberg arrived as defendant was being treated by a doctor. On
the day of arrest, defendant was approximately 170 pounds and six feet tall, with no signs of
injury to his face, neck, arms, or chest. The Band-aids on his fingers were “bandages that you
put on your kid if he skinned his knee.” After defendant was taken into custody, they recovered
his shirt, jeans, socks, and shoes because there was blood on them. The bottom of the socks
were “drenched in blood.” The cushion area of his gym shoes was “spongeable” and also
“drenched” in blood. Forberg testified that the cushion area was “very wet even at that point.”
However, Forberg did not observe any injuries to defendant’s legs or feet.

141

On cross-examination, Forberg acknowledged that Thomas Sr. had entered the
residence prior to the police and possibly his wife as well. The placement of the knives in one
bag meant that blood could potentially have been mixed from one knife to the other.
Defendant’s sister, Jacquiese Robertson, was with defendant at the hospital.

142

The parties stipulated that experts in DNA and biochemistry from the Illinois State
Police Crime Lab would testify, if called, that a DNA profile obtained from blood in
defendant’s right shoe matched defendant but not Senior or Junior; that a DNA profile obtained
14

